<html>
<title> - PROTECTING THE FREE EXCHANGE OF IDEAS ON COLLEGE CAMPUSES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                 PROTECTING THE FREE EXCHANGE OF IDEAS
                          ON COLLEGE CAMPUSES

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2016

                               __________

                          Serial No. 114-OS10

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         





                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-161                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     


         
         


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

                   Nick Gwyn, Minority Chief of Staff

                                 ______

                       SUBCOMMITTEE ON OVERSIGHT

                  PETER J. ROSKAM, Illinois, Chairman

PAT MEEHAN, Pennsylvania             JOHN LEWIS, Georgia
GEORGE HOLDING, North Carolina       JOSEPH CROWLEY, New York
JASON SMITH, Missouri                CHARLES B. RANGEL, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TOM RICE, South Carolina
KENNY MARCHANT, Texas


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of March 2, 2016 announcing the hearing.................     2

                               WITNESSES

Alexander Atkins, Law Student, Georgetown University.............    10
Robert P. George, McCormick Professor of Jurisprudence, Princeton 
  University, and Visiting Professor of Law at Harvard University    87
Frances R. Hill, Professor of Law and Dean's Distinguished 
  Scholar for the Profession, University of Miami School of Law..   116
Catherine Sevcenko, Director of Litigation, Foundation for 
  Individual Rights in Education.................................    40
Joshua Zuckerman, Student, Princeton University, and Founding 
  Member of the Princeton Open Campus Coalition..................    67

                       SUBMISSIONS FOR THE RECORD

Alliance Defending Freedom (ADF).................................   172
Christian Legal Society (CLS)....................................   176
Charles Michelsen................................................   186
Cru..............................................................   188
Doug Weber.......................................................   197
Justin P. Gunter.................................................   199
Michael Berry....................................................   204
Mitchell Steffen.................................................   213
ReJOYce In Jesus Campus Fellowship (RJCF)........................   216
Young America's Foundation (YAF).................................   226


                 PROTECTING THE FREE EXCHANGE OF IDEAS



                          ON COLLEGE CAMPUSES

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                 Subcommittee on Oversight,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1100, Longworth House Office Building, Hon. Peter Roskam 
[Chairman of the Subcommittee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                       SUBCOMMITTEE ON OVERSIGHT

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Wednesday, February 24, 2016
No. OS-10

                  Chairman Roskam Announces Hearing on

                 Protecting the Free Exchange of Ideas

                          on College Campuses

                            * NEW LOCATION *

                   All other details remain unchanged

    House Ways and Means Oversight Subcommittee Chairman Peter Roskam 
(R-IL), today announced that the Subcommittee will hold a hearing on 
``Protecting the Free Exchange of Ideas on College Campuses'' on 
Wednesday, March 2, 2016, in Room 1100 of the Longworth House Office 
Building, beginning at 10:00 a.m.
      
    In view of the limited time to hear witnesses, oral testimony at 
this hearing will be from invited witnesses only. However, any 
individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to make a submission, and click on the link 
entitled, ``Click here to provide a submission for the record.'' Once 
you have followed the online instructions, submit all requested 
information. ATTACH your submission as a Word document, in compliance 
with the formatting requirements listed below, by the close of business 
on Wednesday, March 16, 2016. For questions, or if you encounter 
technical problems, please call (202) 225-3625 or (202) 225-9263.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any materials submitted for the printed record, 
and any written comments in response to a request for written comments 
must conform to the guidelines listed below. Any submission not in 
compliance with these guidelines will not be printed, but will be 
maintained in the Committee files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be submitted in 
a single document via email, provided in Word format and must not 
exceed a total of 10 pages. Witnesses and submitters are advised that 
the Committee relies on electronic submissions for printing the 
official hearing record.
      
    2. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. The name, 
company, address, telephone, and fax numbers of each witness must be 
included in the body of the email. Please exclude any personal 
identifiable information in the attached submission.
      
    3. Failure to follow the formatting requirements may result in the 
exclusion of a submission. All submissions for the record are final.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at 
http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman ROSKAM. The Subcommittee will come to order. 
Welcome to the Ways and Means Subcommittee on Oversight, our 
hearing on protecting the free exchange of ideas on college 
campuses.
    Today we are going to examine how tax-exempt colleges and 
universities are suppressing the free exchange of ideas on 
campus. And specifically, we are going to focus on prohibitions 
on student use of campus resources for political activity, the 
adoption of restrictive speech codes, and incidents when 
administrators or students have silenced other students for 
seeking to exchange--engage in the exchange of opposing ideas.
    Every single year American taxpayers give colleges and 
universities billions of dollars worth of tax breaks. And, as a 
Nation, we believe education is an extremely valuable public 
good. But is this bargain truly benefitting the American 
taxpayers or the students, when colleges suppress speech on 
campus?
    Most colleges and universities, both public and private, 
are either tax-exempt organizations themselves under 501(c)(3) 
of the Internal Revenue Code, or they have separate endowments 
that are (c)(3)s. And under these provisions of tax law, the 
taxpayers give financial benefits to schools based on the 
educational value that they offer to our society.
    When colleges and universities suppress speech, however, we 
have to question whether that educational mission is really 
being fulfilled. Almost all institutions of higher education 
explicitly pledge their support for unfettered academic 
exploration and freedom of expression in their advertising and 
school policies. But every day we learn of new ways that these 
schools are shutting down the marketplace of ideas on campus.
    Schools enact speech codes to stop teasing, and require the 
reporting of micro-aggressions. Students shout down speakers 
because they disagree with the ideas they are hearing 
presented. Colleges force students who want to advocate for a 
particular position to do so only while standing in a tiny, 
designated free-speech zone, often the campus boondocks, and 
only if they have made an advance reservation days or weeks 
prior.
    One situation that has caught this Subcommittee's attention 
was the case of one of our witnesses. When Alexander Atkins 
wanted to pass out political campaign flyers on his campus at 
Georgetown Law, the administration shut him down, arguing that 
his political speech could affect the school's 501(c)(3) 
status. But Mr. Atkins' persistence has paid off; Georgetown is 
currently working to revise its policies.
    And by unanimous consent I will enter into the record the 
letter that Georgetown sent to Ranking Member Lewis and me, 
acknowledging the faults of their previous free speech 
policies, and outlining steps they are taking to reform them so 
students like Alex, regardless of their points of view, can 
discuss issues important to them, debate the views they 
disagree with, and fully participate in the learning process we 
expect at our colleges and universities, not only allowing, but 
encouraging students to compare, reason, discuss, and debate 
ideas in the search for truth.
    [The submission of The Honorable Peter Roskam follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                            
    Chairman ROSKAM. Along the way, we hope this educational 
environment will help students build character, hone their 
values, and strengthen virtues like compassion, maturity, and 
understanding. And in a word, we hope that colleges shape our 
young adults into the kind of positively contributing members 
of society who are equipped with the skills they will need to 
achieve their potential.
    Unfortunately, many other schools continue to use their 
501(c)(3) status to stifle political speech on campus, 
especially during election years. Let's get something straight: 
Section 501(c)(3) does not require schools to prohibit student 
political activity on campus.
    In 2010 the late Supreme Court Justice Antonin Scalia gave 
the commencement address at his granddaughter's high school, 
and he told the graduates that, ``More important than your 
obligation to follow your conscience, or at least prior to it, 
is your obligation to form your conscience correctly.'' For 
students to form their consciences correctly, they have to be 
exposed to a wide variety of competing ideas. And some of these 
ideas might be uncomfortable, unpopular, or offensive.
    But education requires that students learn both to 
challenge others' ideas, and how to form and defend their own. 
Even here, in today's hearing, I am sure we will hear testimony 
that challenges the status quo and may even make us 
uncomfortable. But in the same way that challenging 
conversations are not a threat to education, they are not a 
threat to democracy. And, in fact, our willingness to engage in 
challenging conversations is the very foundation of both.
    Personally, I have an interest in these issues over the 
years because today I have heard from conservative students and 
faculty who were prohibited, shut down, or even fired for 
trying to express their support for the sanctity of life, their 
concerns about immigration or Planned Parenthood or defense of 
Israel, or their view that the government needs to stick more 
closely to the guidance of the Constitution.
    I suspect that some colleagues on the other side of the 
dais are concerned about situations where students and staff 
have had their speech stifled on a different set of views. But 
my hope is that we can all agree that whatever one's particular 
views are, the American ideal supports and is founded upon the 
principle that we may each express our opinions freely. There 
is perhaps no institution where this is more valuable than the 
American college campus, where young minds are learning, 
growing, and maturing.
    I would now like to recognize Ranking Member Lewis for his 
opening statement.
    Mr. LEWIS. Good morning, Mr. Chairman. Good morning. 
Welcome.
    Mr. Chairman, I do not understand why we are here. The Ways 
and Means Oversight Subcommittee does not have jurisdiction 
over future legislation, over freedom of speech, or college 
curriculum or school resources.
    On Monday the Chair and I both received a letter from 
Georgetown University. In the letter Georgetown explained that 
it will revise its policy so that students like Mr. Atkins may 
engage in certain campaign activity on campus without 
jeopardizing the tax-exempt status of Georgetown. This hearing 
focuses on a soon-to-be resolved issue, and the Oversight 
Subcommittee does not have jurisdiction over the decade-long 
argument that certain colleges, their faculties, or their 
students are biased toward either conservative or liberal 
thought.
    Some of today's witness testimony is better suited for the 
Education and Workforce Committee or the House Judiciary 
Committee, which held nearly an identical hearing on the same 
issue--subject last June.
    What are we doing here? What is the purpose of this 
hearing? I will tell you what this hearing is not. It is not in 
the tradition of the Subcommittee. The witnesses should 
remember that our Subcommittee jurisdiction does not extend to 
proposed changes to the Tax Code. This is a matter for the Full 
Committee or the Tax Policy Subcommittee. Consequently, I am 
requesting each and every witness directly address how their 
testimony relates to a requirement of the current Internal 
Revenue Code.
    I look forward to hearing the testimony from the democratic 
witness, Professor Frances Hill. She is a nationally-recognized 
expert in tax-exempt law from the University of Miami. Dr. Hill 
will explain the political campaign activity rules that apply 
to section 501(c)(3) organizations, and she will detail why 
getting those rules right is a key concern for colleges and 
universities.
    Finally, let me state what falls currently squarely within 
our Subcommittee power: Taxpayers' rights. Last July the 
Oversight Subcommittee Majority called on the IRS to put 
taxpayers first. But to date there has been no Subcommittee 
action, no hearing, and no progress.
    Yesterday morning, Nina Olson, the national taxpayer 
advocate, was on CSPAN. She took call after call from Americans 
who are frustrated with taxpayer services. We could have held 
our first hearing on the purpose of the current tax filing--I 
should say on the progress of the current tax filing season, or 
the impact of several years of significant budget cuts on IRS 
services, or on the rising threat by fraud and cyber attacks on 
our tax system.
    Instead, we are here for an issue that is not in this 
Subcommittee's power or jurisdiction, and blatantly ignoring 
the needs, the rights, and concerns of American taxpayers. The 
Subcommittee Democrats are ready to roll up our sleeves and do 
the people's work without politics and partisanship.
    Let me be clear. We have plenty of work to do, and this is 
not it. So, Mr. Chairman, on that note, I yield back the 
balance of my time.
    Chairman ROSKAM. Thank you, Mr. Lewis. In quick answer to 
your question, we are here because of the fact that, look, 
American colleges are using 501(c)(3) as an excuse to stifle 
speech. That is the first reason. The second reason is we have 
jurisdiction here because of all activities under the Ways and 
Means Committee. The American taxpayer, through tax-exempt 
status, subsidizes this activity, and it is a reasonable thing 
that we follow up on it. And finally, we will be doing many 
inquiries as it relates to the Internal Revenue Service.
    So, today's witness panel includes five individuals who 
will offer us insight about their own experiences advocating 
for free expression on campus in this area.
    Alexander Atkins, who I mentioned in my opening statement, 
is a law student at Georgetown University Law Center, and an 
advocate for Senator Bernie Sanders' Presidential campaign.
    Catherine Sevcenko is Director of Litigation at the 
Foundation for Individual Rights in Education.
    Joshua Zuckerman is a senior at Princeton University and a 
founding member of the Princeton Open Campus Coalition.
    Robert George is the McCormick Professor of Jurisprudence 
at Princeton University, a Visiting Professor of Law at Harvard 
University, and an advisor to the Princeton Open Campus 
Coalition. He is also Chairman of the U.S. Commission on 
International Religious Freedom, although he will not be 
testifying in that capacity today.
    And Frances Hill is a Professor of Law and Dean's 
Distinguished Scholar for the Profession at the University of 
Miami School of Law.
    The Subcommittee has already received your written 
testimony. You will each be recognized for 5 minutes. The 
lights are green, yellow, and red. And if you could stick 
closely to that, we would appreciate it.
    Mr. Atkins, you are recognized for 5 minutes.

                STATEMENT OF ALEXANDER ATKINS, 
               LAW STUDENT, GEORGETOWN UNIVERSITY

    Mr. ATKINS. Good morning, Chairman Roskam, Ranking Member 
Lewis, and honorable Members of the Subcommittee. My name is 
Alex Atkins, and I am a second-year student at Georgetown 
University Law Center. I am also a member of a group of law 
center students that supports Senator Bernie Sanders' campaign 
for President.
    As you are likely aware, a law student's free time is a 
rare commodity, so our group's goals are fairly modest. We want 
to share our enthusiasm for Sanders' campaign, and encourage 
our peers to participate in the election. But rather than 
achieving these objectives, our group has spent nearly 6 months 
struggling to engage in basic civic expression.
    In September 2015, at the start of the school year, our 
group's goal was simply to establish our presence on the 
campus. So we decided to reserve a table where other student 
groups commonly reserve space to engage in outreach. But 
Georgetown's office of student life denied our group's 
reservation on the grounds that we were requesting the table in 
support of a specific candidate. That same week I received a 
campuswide email that recognized increased political engagement 
surrounding the 2016 election, and explained that Georgetown 
Law is a tax-exempt organization and was subject to limitations 
on the use of its resources for partisan political campaign 
activities.
    But rather than explaining what these limitations were, the 
email advised students to consult with the university's Office 
of Federal Relations. I emailed the office that day, but I 
never received a response.
    Many of us chose Georgetown Law for its presence in the 
Nation's capital, and the presumption of heightened 
opportunities for political engagement. But with no apparent 
channel for our intended outreach, our group resorted to 
unofficially tabling in the school's cafeteria. Despite the 
less-than-ideal location, students were excited to connect with 
fellow Sanders supporters, and appreciated receiving 
information on voting in their home States.
    October 13th was the first democratic debate, an ideal 
opportunity to amplify our message. It was a beautiful day, so 
we decided to table outside, and we enjoyed friendly 
interactions with our fellow students, while encouraging them 
to attend a debate-watching event. But within an hour, an 
Office of Student Life representative came and told us that we 
were violating the school's policy, and were required to stop. 
We were disappointed, but we were mostly frustrated that the 
representative was unable to clarify precisely what the policy 
was, or how we could permissibly engage in this valuable 
expression.
    When I sought additional clarity in early November, I was 
directed to Georgetown's student organization policy on 
partisan political activities. The policy begins 
optimistically, explaining that students are free to express 
their individual and collective political views. However, the 
policy sharply qualifies that statement by mandating that 
students may not use university-supported resources to do so, 
including space on campus. The only explanation for the 
policy's contradictory approach is its reference to the 
Internal Revenue Code. Citing section 501(c)(3), the policy 
states that Georgetown must restrict the use of university 
resources.
    Our group was shocked by the policy's implications for 
student political expression, and we questioned the legitimacy 
of its rationale. Other students I spoke with reacted with 
nearly unanimous confusion. ``Why would the school not want you 
to do that,'' they asked. ``Isn't that what college campuses 
are for?''
    When I explained that Georgetown's policy seemed to be 
rooted in concerns about losing its tax exemption, many 
students seemed to share my own growing skepticism. Would the 
IRS really penalize Georgetown for allowing its students to 
engage in free expression? The budding lawyer in me wanted an 
answer.
    My efforts to determine what 501(c)(3) actually required 
led me to contact FIRE. A conversation with one of FIRE's 
attorneys confirmed that Georgetown's policy was far stricter 
than necessary, and FIRE offered to write a letter on our 
group's behalf.
    We were relieved to finally have an ally, but we wanted to 
resolve the conflict ourselves. In early December we wrote to 
the dean of the law center and the dean of students. We 
explained our predicament, and sought an arrangement that could 
accommodate both the university's interests and our own. But 
after waiting more than a month without a response, our group 
decided to accept FIRE's offer.
    The letter FIRE wrote, and the media attention that it 
created, has motivated Georgetown to begin revising its 
policies to permit certain partisan activities. This is an 
undeniably positive step, and I am thankful to be included in 
the process. However, these changes cannot undo the nearly 6 
months that we have lost, 6 months when all we wanted to do was 
engage in the type of basic civic expression long considered 
emblematic of America's educational campuses.
    Colleges and universities across the country need to be 
reminded of their obligation not just to permit but to protect 
the vital free exchange of ideas. Thank you.
    [The prepared statement of Mr. Atkins follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    

                                 
    Chairman ROSKAM. Thank you, Mr. Atkins.
    Ms. Sevcenko.

   STATEMENT OF CATHERINE SEVCENKO, DIRECTOR OF LITIGATION, 
         FOUNDATION FOR INDIVIDUAL RIGHTS IN EDUCATION

    Ms. SEVCENKO. Good morning, Chairman Roskam, Ranking Member 
Lewis, Members of the Subcommittee. My name is Catherine 
Sevcenko. I am the Director of Litigation at the Foundation for 
Individual Rights in Education. FIRE is a nonprofit, 
nonpartisan organization devoted to protecting the rights of 
students and faculty on American college campuses.
    I think we all remember our first involvement with a 
political campaign, the camaraderie with the other supporters, 
the policy discussions, the strategy debates, and the euphoria 
when the candidate did well, and the bewilderment when he or 
she lost. Having that experience while you are in college can 
spark an engagement in politics that will last a lifetime.
    But as you have just heard, the political engagement can be 
shut down at any moment on too many college campuses. As 
outlined in my written testimony, FIRE has intervened with 13 
schools since 2008 that claimed that they could not allow 
political activity because it would jeopardize their tax-exempt 
status. These 13 cases did not include numerous informal 
interactions we have had with students to explain their rights 
to them, nor the students who have downloaded information from 
our website. And the number is going up. In fact, we received 
another request for help just a few days ago.
    And this is a bipartisan problem. As you just heard, the 
law school of Georgetown stopped students from campaigning for 
Bernie Sanders. Right at about the same time, American 
University stopped students for campaigning for Rand Paul. And 
the prize, as it were, goes to St. Catherine University in 
Minnesota that, in 2008, refused to allow Hillary Clinton, Bay 
Buchanan, and Senator Al Franken to speak on campus.
    Confusion over IRS guidelines is the likely cause of this 
censorship. General counsels are not going to allow political 
activity that they fear would endanger the school's tax-exempt 
status. As long as the IRS guidance is ambiguous, censorship 
will win out every time.
    This Subcommittee could be instrumental in solving this 
problem. Were the IRS to clarify that viewpoint-neutral 
allocation of resources for political speech does not endanger 
an institution's tax-exempt status, it would be a huge step 
forward in preserving free speech on campus.
    Justifying silencing speech by invoking tax-exempt status 
is just one tool of censorship. Another is a so-called free 
speech zone. To be clear, free speech zones have nothing to do 
with free speech. They are tiny areas of campus where students 
are quarantined when they want to express themselves on the 
issues of the day.
    Merritt Burch and Anthony Vizzone, two students at the 
University of Hawaii Hilo were told they would have to stand 
``here'' if they wanted to protest NSA surveillance, because it 
wasn't the 1960s, and they really couldn't protest like that 
any more. To vindicate their rights, they sued and the case was 
settled after the free speech zones in the entire University of 
Hawaii system were abolished.
    Student Robert Van Tuinen, a veteran, was prevented by 
campus security from handing out copies of the Constitution on 
Constitution Day. Although he literally had the First Amendment 
in his hand, a Modesto junior college administrator said he 
could only distribute the Constitution in this free speech 
zone, a tiny, out-of-the-way concrete stage.
    At Blinn College in Texas, Nicole Sanders decided to 
attract new members to the campus chapter of Young Americans 
for Liberty by talking about gun rights. An administrator told 
her she would have to stand in this free speech zone, literally 
the size of a parking space, and she was also told she would 
need special permission to talk about guns. Her lawsuit is 
ongoing.
    And finally, at Western Michigan University, a student 
group, the Kalamazoo Peace Center, was told it would have to 
pay for security to have Boots Riley, a rapper and social 
activist, speak at its Peace Week celebration. By taxing 
Riley's speech with a fee that the students couldn't afford, 
WMU effectively banned him from campus. Thanks to the students' 
lawsuit, WMU can no longer censor speech in the name of 
security.
    FIRE supported the lawsuits of these students, but legal 
action is time-consuming and expensive. Clear guidance on 
political activity from the IRS would signal to colleges and 
universities this Subcommittee's view that expressive rights 
must be respected. As the primary congressional committee with 
oversight authority over the IRS, you are in a unique position 
to communicate to the agency the urgent need for guidance.
    Yesterday was Super Tuesday. Now is the time to clarify 
that political activity restrictions do not apply to students 
or faculty, but just to the colleges and universities 
themselves. Thank you very much.
    [The prepared statement of Ms. Sevcenko follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman ROSKAM. Thank you.
    Mr. Zuckerman.

 STATEMENT OF JOSHUA ZUCKERMAN, STUDENT, PRINCETON UNIVERSITY, 
   AND FOUNDING MEMBER OF THE PRINCETON OPEN CAMPUS COALITION

    Mr. ZUCKERMAN. Thank you. I would like to begin by thanking 
Chairman Roskam and Ranking Member Lewis and the Members of 
this Subcommittee for holding this hearing and inviting me to 
testify. It is an honor to have the opportunity to help raise 
congressional awareness of threats to open dialogue and to free 
speech on our college campuses.
    I am a cofounder of the Princeton Open Campus Coalition--
that is POCC for short. We are a nonpartisan group of 
conservative and liberal undergraduates dedicated to protecting 
the diversity of thought and the right of all students and 
professors to advance their academic and personal convictions 
in a manner free from intimidation. We believe that the 
protection of free speech is vital to the academic flourishing 
of the university.
    Student protestors at Princeton have recently demanded 
cultural competency training for the faculty, mandatory classes 
on so-called marginalized peoples, and affinity housing for 
students interested in black culture. As I explained in my 
written testimony, POCC opposes each of these ideas, due to 
their destructive effects on the free flow of speech and 
thought. These ideas, if implemented, would create university-
sanctioned orthodoxies. Those who defy these orthodoxies will 
be publicly slandered and labeled as racists. This is not mere 
speculation; it is already happening.
    Members of POCC, since formally opposing these demands, 
have been subjected to senseless ad hominem attacks that would 
effectively silence many members of the campus community. In a 
Facebook post a black POCC cofounder criticized the demands for 
advocating, in his words, ``self-segregation and censorship.'' 
He was then effectively labeled a race traitor. Someone asked 
him, ``Why don't you post something supporting your people, 
instead of trying to bring down those trying to uplift 
blacks?''
    Similarly, a white POCC cofounder wrote an op ed in the 
campus newspaper in which she pointed out the hypocrisy of 
anti-racism protesters making these race-based judgments. In 
response to this article, a groups of protestors screamed 
obscenities at her, while demanding that she not be allowed to 
participate in a public open forum due to her allegedly racist 
beliefs. They sought to prevent her from espousing her ideas.
    Numerous other students have privately confided to POCC 
that they also oppose the demands, but are afraid to speak out 
for fear of being publicly subjected to these vicious ad 
hominem attacks.
    Now, these attacks go far beyond personal insults. For 
instance, a student who wrote an article in defense of free 
speech in the campus conservative magazine woke up to find a 
shredded copy of the magazine taped to her door. Someone went 
out of their way to find out where she lived, and to try to 
intimidate her.
    This is what we are seeing at Princeton today, and these 
demands haven't even been implemented. Imagine what would 
happen if the university itself were to vindicate the 
protestors' world view, thereby reinforcing this notion that 
those who disagree need to be re-educated.
    The student protestors are attempting to portray POCC's 
concern with free speech as misguided. This could not be 
further from the truth. Consider this excerpt from an op ed 
written by a protest leader in the student newspaper. She 
wrote, ``If your freedom of thought means that I, a black 
student, do not have the luxury of feeling safe on a campus 
that I have worked my entire life to get to, it should have no 
place in universities or any other beloved institution.''
    As this excerpt demonstrates, protestors seek to purge the 
university of ideas that make them feel unsafe. But no one at 
Princeton is unsafe. There has not been a single instance of 
violence, and no one has called for the subjugation of 
minorities. Anyone who did would be unanimously and instantly 
condemned, and everyone knows that. These attempts to bully 
students into silence--and, when that fails, to demand the 
creation of policies that will have similar effects--are 
utterly intolerable.
    Speech at Princeton currently enjoys robust protection. The 
status quo, as far as things go nationwide, is pretty good. 
Protestors seek to change that.
    As I mentioned, POCC opposes each demand, and respects the 
right of all students to advance their personal convictions. 
Naturally, this does include advocacy for the aforementioned 
demands. POCC has helped lead the fight against these proposed 
policies. We have met with the president of Princeton and 
members of the board of trustees. We have written several op 
eds in campus and national newspapers, participated in public 
debates, and appeared on national news.
    Today, POCC would like to call on our political leaders to 
reaffirm the importance of free speech on college campuses. 
President Obama rightly condemned students who feel a need, as 
he said, ``to be coddled and protected from different points of 
view.'' You shouldn't silence speakers by saying, ``You can't 
come because I am too sensitive to hear what you have to say.''
    We hope Congress and all of our elected officials will 
follow President Obama's example and unite in condemnation of 
students and administrators who seek to restrain or to prevent 
those who advance controversial views from exercising their 
fundamental right to free speech. The importance of this issue 
transcends partisan and ideological divisions, and should unite 
all Americans in defense of our universities, our principles, 
and our future. Thank you.
    [The prepared statement of Mr. Zuckerman follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman ROSKAM. Thank you, Mr. Zuckerman.
    Professor George.

     STATEMENT OF ROBERT P. GEORGE, MCCORMICK PROFESSOR OF 
JURISPRUDENCE, PRINCETON UNIVERSITY, AND VISITING PROFESSOR OF 
                   LAW AT HARVARD UNIVERSITY

    Mr. GEORGE. Thank you, Chairman Roskam. Ranking Member 
Lewis, honorable Members of the Committee, I am delighted to be 
here, and glad that you are holding this hearing.
    In my written testimony I go into some detail, based on my 
31 years of experience teaching at Princeton and at Harvard, 
about what I believe the causes of campus illiberalism are. In 
my testimony this morning I want to focus more on what I regard 
as the solutions. How do we solve the problems?
    In the written testimony I identify the ways in which a 
lack of viewpoint diversity among faculty on college campuses 
abets the problem of campus illiberalism, and I think viewpoint 
diversity is actually the solution. And I want to give a couple 
of examples this morning of the value of viewpoint or 
intellectual diversity on campuses.
    One is the James Madison program at Princeton, which I have 
the honor to direct. The program was founded 15 years ago, and 
its impact on the intellectual culture of Princeton by helping 
to bring viewpoint diversity to our community has really been 
remarkable. It gives me enormous satisfaction that this opinion 
of mine is shared by many of my liberal colleagues who share 
none of my other opinions. They praise the Madison program for 
turn- 
ing what might have been campus monologues into true dialogues, 
benefiting everybody in the process. The presence on campuses 
of initiatives like the Madison program ensure that students 
will 
hear a wide range of opinions from thoughtful and accomplished 
scholars.
    Diversity of opinion confers a great benefit on an 
intellectual community. It ensures that people cannot simply 
suppose that everybody in the room shares the same assumptions 
or holds 
the same views. People know that they have to defend their 
premises because those premises will be challenged. That makes 
for a deeper, more serious kind of intellectual engagement, a 
kind that profoundly enriches the intellectual life of the 
entire community.
    Now, the second example is the experience I have had of 
teaching with my friend and colleague, Professor Cornel West. 
Professor West is a man of the left. I am on the conservative 
side of the political spectrum. But we regularly teach together 
at Princeton. 
Our most recent seminar included readings from Sophocles, 
Plato, St. Augustine, Marx, Mill, Newman, Kierkegaard, Hayek, 
Solzhenitsyn, John Dewey, C.S. Lewis, Reinhold Neibuhr, and 
Gabriel Marcel. What happens in our seminars is magical, and 
the impact on our students is amazing.
    What you have here is a genuine collaboration. Professor 
West and I cooperate across the lines of ideological division 
and political difference in the common project of seeking 
truth, seeking knowledge, seeking wisdom, engaging with each 
other and with our students in a serious, respectful, civil 
manner, striving to understand each other and to learn from 
each other, treating each other not as enemies, despite our 
differences, but as partners in the common project of seeking 
truth, seeking knowledge, seeking wisdom.
    Whether the readings for the next meeting of our seminar 
are Machiavelli's Prince, Tocqueville's Democracy in America, 
Du Bois' Souls of Black Folks, Gramsci's Prison Notebooks, or 
Strauss' Natural Right and History, we can't wait to be in the 
classroom every week with our students, and our approach is the 
opposite of antiquarian; we look for the timeless meaning, but 
also the contemporary significance of the text we assign. We 
consider existential, moral, religious, and political 
questions, including contemporary political questions that are 
important to us and to our students in the context of the 
readings.
    And here is what really matters. The students learn. And 
they learn how to learn. They learn to approach the 
intellectual and moral matters that we are considering 
critically, engaging the most compelling points to be adduced 
in favor of the positions on both sides of the question. They 
learn the value and importance of mutual respect and civility. 
They learn from two guys with some very strong opinions, 
neither of whom is shy about stating those opinions, that the 
spirit of truth-seeking, like the spirit of liberty, in the 
famous words of the great jurist, Learned Hand, ``is a spirit 
open to the possibility that one may, in fact, be wrong.''
    Let me be a little more specific, because what Professor 
West and I do really is, I believe, part of the cure for campus 
illiberalism. I have prided myself for my entire career on 
being a teacher who can represent the views of the other side 
very, very well, so that I am not indoctrinating my students. 
And Professor West feels the same way. He feels he can present 
the views of the other side very well, and he does a great job.
    But what we have learned in the seminar is neither of us 
can do it as well as we can do it when we are together. And 
what that teaches me, whether two professors are together in a 
classroom, or whether they are just in separate courses around 
the campus, is that students can't really learn and appreciate 
the process of learning and the need to hear diverse viewpoints 
unless they have diversity of viewpoint among the faculty on 
campuses.
    Thank you very much.
    [The prepared statement of Mr. George follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman ROSKAM. Thank you.
    Professor Hill.

   STATEMENT OF FRANCES R. HILL, PROFESSOR OF LAW AND DEAN'S 
 DISTINGUISHED SCHOLAR FOR THE PROFESSION, UNIVERSITY OF MIAMI 
                         SCHOOL OF LAW

    Ms. HILL. Thank you, Chairman Roskam. Good morning, Mr. 
Lewis. And to the Members of the Committee, thank you for 
inviting me to testify today regarding the tax issues 
implicated in the question before the Committee.
    The issue, as I see it as a matter of tax law, is whether 
speech or action of particular officials or employees or 
students or other persons affiliated with the university are 
properly treated as speech or action by the university as a 
tax-exempt entity. Because, as we all should fully understand, 
section 501(c)(3) does not apply to the students, the faculty, 
or the administrators. It applies to the university as a tax-
exempt entity. So the question before us is whether our various 
affiliations with the university mean that our various actions 
taken in various capacities of our lives will be attributed to 
the university as a tax-exempt entity.
    This, of course, to a tax lawyer, immediately raises the 
need to discuss the tax concept of attribution. You must have 
looked at this testimony and thought, ``Oh, my goodness, I am 
back in law school again.'' And this is part one of the 
testimony that takes you through a range of Supreme Court cases 
that establish two important points, I think, for the Members 
of this Committee today.
    One is there is in tax law a presumption that entities are 
separate. It is called the separate identity principle. So if a 
corporation has a subsidiary and it owns 100 percent of the 
stock, never mind. The subsidiary is separate. The same is true 
at a university. If it operates through many entities, all the 
actions of each entity will not be attributed to the core 
university.
    The second principle is that the separate identity 
principle can be overcome when there is evidence of agency, 
where one entity is the agent of another. And I have listed, in 
professorly, tax-lawyerly fashion, a variety of authorities and 
Supreme Court determinations relating to this issue.
    But the heart of our matter today is part two of the 
testimony. When is there attribution of the actions of those of 
us affiliated with universities to our university? Now, there 
may be no actual instance at all where one or another 
administrator at a university wants to even acknowledge that we 
are part of his university. But they, of course, have little 
choice to do that.
    A university is a group of broadly affiliated people 
filling broadly different roles. So the university acts only 
through the speech and activity through each of us. The 
question then before us is whether our various positions in the 
university support the separate identity principle or lead to a 
presumption of agency, meaning that we could bind the 
university and be taken as speaking for the university.
    The IRS has made it abundantly clear that only in the 
rarest of circumstances would a student be considered the agent 
of a university, and they have issued revenue rulings dealing 
with a political science course that involved going out and 
working in campaigns. And as long as the students could choose 
which campaign they wanted to work in and fulfill the other 
requirements of the course, like writing a paper--which doesn't 
seem so onerous--this is not attributed to the university.
    Even more interesting is the student newspaper. Student 
newspapers endorse--are free to endorse, under this guidance 
from 1972, candidates for public office, and that is not 
attributed to the university.
    So, the testimony goes through other instances where the 
IRS has written quite clear guidance. It is interesting to me 
that the guidance that the IRS indicates that suggests the 
greatest danger of attribution is where senior administrators 
take positions and do not clearly state that they are acting in 
a personal capacity, but try to maybe act for the university.
    And these are the references to a president of a university 
who wrote a ``My View'' column in a university presentation, 
and endorsed a candidate for elective office. That is a 
problem, because when a president of a university is speaking, 
everything that president does in an official publication of 
the university will be attributed to the university, unless 
there is a broadly public disavowal, as public as that 
statement.
    So, I would urge the Committee today to look carefully at 
all the guidance that is already out there--some of it is 
nonprecedential, but all of it is widely used in the tax 
profession--and consider what can be achieved by having 
organizations make sure they are informed of what is already 
there, and take steps to educate their own lower-level 
administrators or their president about what they can and 
cannot do. Students can do almost anything. Thank you.
    [The prepared statement of Ms. Hill follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    Chairman ROSKAM. Thank you, Professor. For the benefit of 
those who are watching and participating today, we have an 
email address that we have set up that--we are interested in 
hearing about cases. So the Committee wants some input. And the 
email address is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4e4c405d585e035e5d48484e456d404c4441034542585e48034a425b03">[email&#160;protected]</a> I will repeat 
that: The email address is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b080a061b1e1845181b0e0e08032b060a02074503041e180e450c041d45">[email&#160;protected]</a> So if 
you are a student or a faculty member or an administrator, and 
you have the sense that your free speech has been suppressed on 
campus, this Subcommittee would appreciate you getting that 
information to us.
    Thank you to the witnesses. You did a great job, in terms 
of timing, and you were clear and insightful. And now we have 
an opportunity to inquire of you. And I will recognize Mr. 
Meehan for 5 minutes.
    Mr. MEEHAN. Thank you, Mr. Chairman, and thanks, our 
distinguished panel, for your various perspectives. I am 
struggling to get my arms around this issue, so I am--you know, 
I--Ms. Hill closed her testimony with a statement that students 
can do almost anything.
    And, you know, I am struggling to understand that concept, 
because it is not so much the ability for students to 
articulate a political position necessarily on campuses, but it 
is the sense that the schools themselves--and I recognize there 
are 650 civil rights attorneys in the Department of Education 
alone that are holding colleges accountable, to some extent, if 
for some reason a particular student perceives that another 
student's speech offends them in some manner. And I am seeing 
this more and more frequently, and that is the part that I am 
trying to understand, quite honestly.
    This is an interesting month, if you happen to be Irish. 
And you begin to see things done on college campuses in which 
they will say, ``Saint Patrick's Day, celebrate with a beer.'' 
And at what point in time does the student that begins to 
promote some kind of activity on campus that says, you know, 
``Come to a Saint Patrick's Day event'' that has beer all over 
it begin to create the image that all Irishmen are drunkards? 
And I find that offensive. And at what point in time can I step 
forward and say on this campus, under the speech code, because 
I find it offensive that your articulation of something that 
would depict an Irishman as a potential drunk is wrong, and it 
must be stopped on this campus?
    Ms. Sevcenko, am I missing something in that particular 
position on college campuses? And under the law, does somebody 
on a college campus have any different standard of protection 
than they would if they were walking down a street, to be 
protected from speech that would be considered to be 
harassment?
    Ms. SEVCENKO. Thank you, Congressman. Let me address a 
couple of things. One is the difference between public 
universities and private universities.
    Mr. MEEHAN. Let's go with private universities. I am more 
interested in those that are creating these special codes in 
addition to----
    Ms. SEVCENKO. Well, unfortunately, public universities 
create them, as well. But, in terms of private universities, 
they are not directly bound by the First Amendment, but they 
are bound by the promises that they make. And it is a very rare 
university that has up on its website disclaimer, ``Come here, 
check your free speech rights at the door.'' They all proclaim, 
``Come here, experience,'' you know, ``diversity of ideas, 
intellectual, rigorous debate,'' so on and so forth.
    So, to answer your question, in terms of you being able to 
object to a poster depicting a drunken Irishman, you can do 
that the minute you see it. You can write a letter to the 
editor, you can address the group that has put it up. That is 
what the university is for.
    Mr. MEEHAN. But should the university at that point in time 
require that all students who have participated in the creation 
of that poster be disciplined for violating my sensitivities?
    Ms. SEVCENKO. There is no constitutional right not to be 
offended. And if the school has promised free speech, then no, 
the university should not, because then they would be in 
violation of the promises they have made, and their moral 
obligation to keep that. There is no bait and switch.
    Now, there are a few colleges who have said that, 
``Community is more important to us than free speech. So when 
you come here, you need to be very careful about what you say, 
and you will be disciplined if you say something that offends 
others.''
    Mr. MEEHAN. Would it be any different if I said it was a 
tequila party, and I was going to wear a sombrero, bring a 
sombrero?
    Ms. SEVCENKO. I mean it doesn't--the principle remains the 
same.
    Mr. MEEHAN. So speech--and I looked at this, and I tried 
to--speech, in order to be unprotected, it has to be so severe, 
pervasive, and objectively offensive and undermining, it 
detracts from the victim's educational experience, that the 
victims, students, are effectively denied equal access to an 
institution's resources and opportunities.
    I would suggest to you that it is just not any speech that 
I find offensive which is protected----
    Ms. SEVCENKO. Yes. What--yes. What you have just cited is a 
Supreme Court case.
    Mr. MEEHAN. Yes, I did.
    Ms. SEVCENKO. David v Monroe. So that is the standard that 
the Supreme Court has set for harassment.
    Mr. MEEHAN. And is it any students, or is it a reasonable 
student--what is a reasonable student's expectation in that----
    Ms. SEVCENKO. It is, yes, an objective standard, so a 
reasonable person standard. And it has to be pervasive. That 
is, if somebody says something egregious once, then that 
probably doesn't meet the standard. If it happens over and over 
again, then yes, the university under that standard should step 
in.
    Chairman ROSKAM. Thank you.
    Mr. Lewis.
    Mr. LEWIS. Thank you very much, Mr. Chairman. I want to 
take a moment to thank each one of you for being here, and 
thank you for your testimony.
    I am trying to get a sense of whether the stakes for 
colleges are big, or if this is a minor issue. Professor Hill, 
what are the stakes for a college or university if it engages 
in banned campaign activity? What sanction does the Tax Code 
impose for this type of violation by a 501(c)(3) tax-exempt 
entity?
    Ms. HILL. In this case, Congressman Lewis, the Internal 
Revenue Code, which prohibits in 501(c)(3) participation or 
intervention in political campaigns, including the publishing 
or distributing of statements--any political campaign on behalf 
of or in opposition to any candidate for public office. But as 
I have said, one has to run this through whether--the question 
of whether the university is speaking.
    Now, the sanctions in this area are severe. They are an--
not just for universities, but all 501(c)(3) public charities, 
which means they are publicly supported under section 509 of 
the Internal Revenue Code. And, in that case, what happens if 
an organization has been engaged in political campaigning is 
they are in jeopardy of losing their tax-exempt status.
    Now, why does that matter so much? It matters for two 
reasons. If they are not tax-exempt, they lose the subsidy 
represented by the entities not having to pay taxes. Number 
two, their contributors lose their section 170 charitable 
contribution deduction made for contributions to the 
university.
    And so--and that contribution, I will just remark, is 
deductible on the mere basis of the university or other 
organization being a 501(c)(3) organization in good standing. 
So if somebody would want to give a university $3 million for 
an endowed chair for a professorship in organic chemistry, they 
can still give the money, but the organization can only, in a 
sense, validate the section 170 charitable contribution 
deduction if the university itself is tax-exempt.
    And I will just add that many public universities also seek 
501(c)(3) tax-exempt status precisely because their 
contributors want to see a determination letter from the 
Internal Revenue Service assuring them, as contributors, that 
their contribution to the university will be deductible. So it 
is, on the tax side, a little more complex than just a public-
private divide.
    So universities care about their exempt status. They care 
about preserving it. They care about reconciling it with an 
atmosphere in which students can learn and professors can teach 
and write, and administrators can do whatever it is that 
administrators do--we on the faculty often are not quite sure.
    [Laughter.]
    But nobody, nobody, could do more harm to a university than 
an ill-informed senior administrator or a willful senior 
administrator, because of the difficulty of disavowing those 
acts of political participation.
    That is why I said, Congressman Meehan--just to sort of in 
a sense, address your comment--that students can do almost 
anything with respect to political advocacy in a nonviolent 
way, which is certainly what we are talking about today. And 
the chances of that jeopardizing the exempt status of a 
university are very low, as the existing guidance so amply and 
clearly understands.
    Mr. LEWIS. Professor Hill, before we run out of time, are 
you aware of any university losing its tax-exempt status 
because of campaign activity?
    Ms. HILL. Mr. Lewis, I am not. I have not undertaken 
empirical research on my own on this question. But I think I 
might have heard about instances of it, although maybe I 
haven't. But I have not heard of an instance.
    Mr. LEWIS. Thank you very much, Mr. Chairman.
    Chairman ROSKAM. Mr. Holding.
    Mr. HOLDING. Thank you, Mr. Chairman, and I appreciate you 
holding this hearing. You know, the institutions that we are 
looking at today, these issues, you know, the institutions and 
their endowments under 501(c)(3), under the Tax Code, they get 
enormous taxpayer support. And I think it is clear that we have 
jurisdiction to look at these issues.
    But, Ms. Sevcenko, I want to get you to clarify a few 
things. Most private schools are tax-exempt under 501(c)(3), 
correct?
    Ms. SEVCENKO. I believe so, yes.
    Mr. HOLDING. The--are there any public colleges that are 
exempt under 501(c)(3)?
    Ms. SEVCENKO. Yes, I believe so. But Professor Hill would 
be better able to address that.
    Mr. HOLDING. But most of them are public institutions. They 
don't have to use 501(c)(3), correct?
    Ms. SEVCENKO. Yes, they are exempt under section 115.
    Mr. HOLDING. So, when you are talking about the First 
Amendment and applying it to public colleges, how does the 
First Amendment apply?
    Ms. SEVCENKO. The First Amendment applies to public 
colleges because they are government instrumentalities. So the 
First Amendment applies to the States through the Fourteenth 
Amendment incorporation. And then, because the schools are 
State government entities, the First Amendment applies to 
campus.
    Mr. HOLDING. Now, when we are talking about the First 
Amendment, how does it apply to private colleges, as opposed to 
public colleges?
    Ms. SEVCENKO. The First Amendment does not directly apply. 
That is where we look to the--what the college has said about 
its own intentions. And there are, in fact, some State courts 
that have said that if a college promises free expression and 
then censors a student, that could be considered breach of 
contract.
    Mr. HOLDING. But it is not a First Amendment right, it is a 
breach of contract.
    Ms. SEVCENKO. Yes, because there is a First Amendment right 
of association, as well, so that if I want to have a college 
that is the, you know, don't say anything that will offend 
anyone college, I am able to do that.
    Mr. HOLDING. So, are private colleges and universities 
allowed to restrict speech and political activity on campus? 
Just to be clear on that.
    Ms. SEVCENKO. Yes, yes. I mean, I think Alex here is a 
perfect example of that.
    Mr. HOLDING. So why should tax-exempt private colleges and 
universities not restrict political activity on campus? That 
would be toward, you know, their marketing and so forth, as you 
mentioned.
    Ms. SEVCENKO. So why should they not? I mean----
    Mr. HOLDING. Why should they not? I mean what would be the 
reason that they not do that?
    Ms. SEVCENKO. Because they were granted tax-exempt status 
because they have an educational mission. And I think it is 
deeply ironic that the universities, in an attempt to preserve 
their 501(c)(3) status, are in fact censoring people, censoring 
students, which is undermining the very purpose that they are 
there for.
    And this is not a minor problem. We survey every year 450 
universities. We look through all of their speech codes. And in 
our latest spotlight report--a copy here--50 percent of the 
colleges and universities that we look at have openly 
unconstitutional speech codes.
    Mr. HOLDING. So why do you think they do that? What do you 
think the impetus is behind the people making those decisions 
to restrict free speech in a tax-exempt institution?
    Ms. SEVCENKO. I think there are various reasons that they 
do it. Administrators do not like confrontation. They want 
things to stay, you know, on an even keel. They like to have 
control, they like to know what is going on. That is why we see 
the free speech zones--oh, we will just send, you know, 
troublemakers like Alex here over to that corner, so that they, 
you know, won't attract attention.
    There are government regulations. The Office for Civil 
Rights at the Department of Education, as you know, has been 
very active in issuing title IX Dear Colleague letters. They 
issued a blueprint a couple of years ago, what they called the 
blueprint, with what we consider to be a blatantly 
unconstitutional definition of sexual harassment as unwelcome 
conduct, including verbal conduct of a sexual nature. That can 
encompass just about anything.
    So there are various things going on. But mainly, the 
administrators, they want to avoid trouble. That is why the 
general counsels will say, ``No, let's just be on the safe side 
and tell the students not to have political activity, not to 
campaign for Bernie Sanders, because''----
    Mr. HOLDING. Right.
    Ms. SEVCENKO [continuing]. ``The election will be over 
soon, they will graduate, but we have to be''----
    Mr. HOLDING. Well, thank you very much, and I appreciate 
the examples that you showed us. And I hope, Mr. Chairman, that 
we get some participation from folks who have experienced this, 
and they email into us. Thank you.
    Chairman ROSKAM. Thank you.
    Mr. Crowley.
    Mr. CROWLEY. Thank you, Mr. Chairman. Good morning, and 
welcome to each of you this morning.
    Professor Hill, while the First Amendment prohibits 
colleges and universities from restricting speech, the First 
Amendment generally does not apply at private colleges and 
universities, because the First Amendment regulates only 
government conduct. Is that correct?
    Ms. HILL. Yes.
    Mr. CROWLEY. It is kind of similar to the give-and-take 
most recently by my colleague, Mr. Holding, and with Ms. 
Sevcenko, is that correct?
    Ms. HILL. Well, it is broadly correct. I mean that would--
if we go beyond that we are going to fall into the swamp of the 
State Action Doctrine under the Fourteenth Amendment, which 
is----
    Mr. CROWLEY. But you do agree with Ms. Sevcenko, in terms 
of her----
    Ms. HILL. Yes, I agree with----
    Mr. CROWLEY. And Georgetown University is a private 
university, is that correct?
    Ms. HILL. As far as I know.
    Mr. CROWLEY. It is a private university.
    Ms. HILL. Yes.
    Mr. CROWLEY. Georgetown University also has been working 
with the aggrieved parties in this particular case being 
discussed today in an attempt to resolve their differences. I 
am not asking for your comment, I am making a statement of 
fact.
    In fact, Georgetown University--that letter has been 
entered into the record--to this Subcommittee, informing us 
that, based on those discussions and a review of their internal 
policies, the university, Georgetown University, is adjusting 
their policies to make very clear that all of the members of 
the community will be able to make reasonable use of the 
university, the private university and its resources, to 
express their political opinions.
    Additionally, I would like to submit for the record--I 
don't believe it has yet been submitted--a list of the 
political speakers and events at Georgetown, a private Catholic 
college that is not bound, again, by the First Amendment. And 
you will see a wide variety--diversity of opinions and 
believes, from Mike Huckabee to Bernie Sanders. And I have that 
here, Mr. Chairman. I would like to submit that for the record.
    Chairman ROSKAM. Without objection, so ordered.
    [The submission of The Honorable Joseph Crowley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    

                                
    Mr. CROWLEY. Thank you. What we are seeing today, in my 
opinion, is this Subcommittee is really searching for a problem 
where no problem exists.
    Georgetown University isn't bound by the First Amendment, 
but they are, on their own initiative, revising their policies 
to ensure full inclusivity for all of their students. They are 
doing that for academic diversity, and not because they are 
being compelled by the government or by this Subcommittee's 
hearing today. I want to make it clear, Georgetown University 
is one of the preeminent universities in our country because of 
this type of policy.
    Essentially, they are showing the true spirit of a liberal 
arts school: Being open to debate and adopting policies that 
best reflect their students and the needs of that student body. 
This Subcommittee should be praising Georgetown University for 
their actions, and not bashing the Nation's preeminent Catholic 
institution of higher learning.
    We are also seeing this Subcommittee walk into this issue 
at the last minute, providing no value added, in my opinion, 
when there are a number of other issues we should be examining 
in our role on oversight. I would suggest our time be better 
spent on a hearing discussing the impact of the budget cuts on 
customers and consumers and the services at the IRS. Or a 
hearing on the ongoing and escalating threat of taxpayer 
identity theft, where criminals are literally stealing 
someone's identity to file an income tax return and claim 
someone else's refund. It is going on right now, while this 
Committee is discussing this issue. This real impact on lives 
of Americans is going on while we dither on this issue.
    I think Congress should get back to focusing on the needs 
of the people back home, and not the special interests here in 
Washington, D.C. And with that, Mr. Chairman, I will yield back 
the balance of my time.
    Chairman ROSKAM. Thank you.
    Mr. Smith.
    Mr. SMITH OF MISSOURI. Thank you, Mr. Chairman. I 
appreciate this hearing. I am pretty amazed with the testimony 
that we have not heard of any comment of the University of 
Missouri. That is the university that I graduated from. It is 
from our State.
    And one point of concern where I think it really hits home, 
especially where Mr. Atkins and Mr. Zuckerman kind of hit some 
points on free speech, is that it was publicized quite a lot of 
a professor at the university that tried to halt a reporter 
from taking photos and being assembled in the area where there 
was some protesting going on back in November. And, 
unfortunately, a week ago today she was fired. But it took 
several months before that firing took place, and it was 
actually a four-to-two vote by the board of curators to even 
fire her.
    And I was just looking through, during this discussion, a 
Washington Post article that showed some statements made during 
that whole process of basically muzzling freedom of speech. And 
we are talking about a public institution, not a private one, 
like Georgetown. The University of Missouri is a public 
institution. And in the Washington Post it was said that this 
professor approached this reporter, who was just wanting to 
take photos, and it was there the professor said, ``I can't 
hear you, hey, hey, ho, ho, the reporter has got to go,'' and 
just kept chanting, and then also asked for ``some muscle to 
come over.'' That was their statement which was in the video 
that--a lot of people said.
    And so, when we are talking about freedom of speech, it 
needs to be freedom of speech. And I think that this is a very 
important hearing, because no one's freedom of speech should be 
muzzled, regardless of what your speech is going to be, 
especially at a public institution.
    So, I applaud the Chairman for holding this hearing----
    Mr. CROWLEY. Will the gentleman yield just for a moment?
    Mr. SMITH OF MISSOURI. Yes, I will.
    Mr. CROWLEY. You said ``especially at a public 
institution.'' We understand that at a private college that 
does not--that doesn't apply.
    Mr. SMITH OF MISSOURI. I am talking about a public college.
    Mr. CROWLEY. For the record. Thank you, sir.
    Mr. SMITH OF MISSOURI. I understand there are different 
mechanisms between a private university and a public one, but I 
am talking about a real problem that has faced a public 
university. So--and this is quite a big issue.
    So, I would also like--I may not say your name right--you 
know exactly who I am talking to, thank you.
    [Laughter.]
    Could you give me a--I noticed in your testimony, I 
believe, that there was mentioned a university that prevented 
some folks from releasing--you know, handing out the 
Constitution. Could you go into more detail on that?
    Ms. SEVCENKO. I believe you are referring to Modesto Junior 
College at which an Army veteran, Robert Van Tuinen, wanted to 
hand out copies of the Constitution to celebrate Constitution 
Day. He had been doing that for approximately 10 minutes when a 
security guard came up to him and told him that he needed to 
stop doing that. If he was going to be engaging in any public 
expression, he needed to be in the free speech zone. And, in 
order to get to the free speech zone, you have to sign up for 
it.
    So he then went to the administrator, who took out a book, 
which is an appointment book like you would see at the 
dentist's office, you know, where they sort of rifle through 
and see when an appointment might be available. He was told 
that the free speech zone, which holds two people, was booked 
until the beginning of October.
    So if he wanted to come back at the beginning of October, 
he could stand in the corner and try to hand out his 
Constitutions. And he said, ``But today is Constitution Day,'' 
and that didn't matter.
    Mr. SMITH OF MISSOURI. Quite interesting. In your 
experiences, have you seen that some types of views are more 
likely to be censored than others?
    Ms. SEVCENKO. As I said in my statement, this is a 
bipartisan problem. We see all sorts of speech being censored. 
It can be from the right, it can be from the left. Nicole 
wanted to talk about gun rights in Texas. The administrators 
wouldn't let her. We are engaged in litigation on behalf of the 
National Organization for the Reform of Marijuana Laws at Iowa 
State University. They wanted to put a pot leaf on a tee shirt; 
they were told----
    Mr. SMITH OF MISSOURI. And I think we saw that with the 
gentleman to your right, as well.
    Ms. SEVCENKO. Yes.
    Mr. SMITH OF MISSOURI. So it is different spectrums, 
politically. So I agree.
    Thank you, Mr. Chairman.
    Chairman ROSKAM. Mr. Davis.
    Mr. DAVIS. Thank you very much. Thank you, Mr. Chairman. 
And I too want to thank the witnesses for coming.
    Mr. Chairman, given the focus of the hearing, I wish to 
raise a serious concern about the possible misuse of 501(c)(3) 
status by certain for-profit colleges that converted to non-
profit status, while still operating to the for-profit benefit 
of the former owners. And so I ask to submit for the record a 
report by the Sentry Foundation on this issue that documents 
questionable activities by some former for-profit colleges that 
appear to violate the legal requirements of 501(c)(3).
    Chairman ROSKAM. Without objection, so ordered.
    [The submission of The Honorable Danny Davis follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Mr. DAVIS. Thank you, Mr. Chairman. Misuse of tax-exempt 
status for profit is very troublesome. A conversion allows 
hundreds of millions of taxpayer dollars from the Departments 
of Education, Defense, and Veteran Affairs to enhance the 
profit of a few at the taxpayers' expense. We must protect 
students who are trying to get a high-quality, affordable 
education from this regulatory blind spot.
    Ms. Hill, let me ask you. There are two issues that I am 
familiar with that have recently arisen. One is the fact that 
Wheaton College in Illinois attempted to fire a Muslim 
professor after she posted on Facebook her belief that 
Christians and Muslims worshiped the same god. The other is at 
Valdosta State University, bound by free speech laws as a 
public school. They kicked out 30 black students who silently 
attended a political event on campus. Where would you see these 
two incidents fitting into the discussion that we are having?
    Ms. HILL. I think these incidents----
    Chairman ROSKAM. Will the gentleman yield just for the 
point of clarification? Just on one quick point?
    Mr. DAVIS. Mm-hmm.
    Chairman ROSKAM. In the Wheaton College case, it wasn't a 
Muslim professor, it is a Christian professor who is making 
doctrinal statements. Just for the record.
    Ms. HILL. Yes, Mr. Davis. Your two examples, neither of 
which involve partisan campaigning, we agree, but there are 
other things that go on at universities which may be 
questionable and potentially not consistent with the operation 
of them as exempt entities. And the question in both of these 
cases, I think, is can either a faculty member or a whole group 
of students be severely sanctioned for exercising their own 
First Amendment rights? We do not lose our First Amendment 
rights because we attend private universities. We do not lose 
our First Amendment rights about whether we go to a political 
meeting.
    The question in both cases, in a tax sense, is is the 
university operating for an educational purpose? And when it 
seems that actions taken in retaliation are disproportionate--
certainly in the case of the 30 black students or, I believe it 
was, a professor of religion who, yes, I believe was Christian, 
but was expressing solidarity with people of other faiths, says 
she believes that Muslims and Christians worship the same god. 
That sounds to me like something that a professor of religion 
will spend her professional time addressing, and you would 
expect it to be.
    So, in those cases, what we have here may be a 
misunderstanding of the core educational mission of the 
university, and expressing that misunderstanding through 
punishment of people who are not responsible and have no way of 
impacting the university.
    So what I think is going on here is the question are 
universities operating for an educational purpose, and there 
are many ways to be operating for something other than an 
educational purpose. Universities whose presidents are making 
$7 million when they have 300 students, or examples not far 
from that, may have a private benefit and an inurement problem 
that has nothing to do with the political activity topic of 
today's hearings. But inurement I bring up because that, too, 
is punishable by revocation of exempt status.
    So, universities are big and complicated, and there are 
many, many important issues where completely innocent people 
are punished for innocent behavior.
    Chairman ROSKAM. Thank you.
    Mr. DAVIS. Thank you, Mr. Chairman.
    Chairman ROSKAM. Mr. Reed.
    Mr. REED. Thank you, Mr. Chairman.
    Mr. Crowley, my fellow New Yorker, a true good friend of 
mine, asked the question as to--trying to distinguish 
Georgetown University's public-private distinction, and I 
understand that. But the facts are the facts. Georgetown 
University gets a special designation by us, here in Congress, 
to get income, to accumulate income, on a tax-free basis. And 
the people that are donating to that institution under that 
basis get a tax deduction for doing that. So we do have a 
government role, even in those private institutions, in the 
sense that we have designated this special preference to those 
institutions, going forward.
    I would also note for the record that it took over 6 months 
for Georgetown University to take action here, and yet still 
has not updated its policy. And it actually took a formal 
letter from your organization, ma'am, I believe, to move the 
ball.
    So, to say that we don't have a role here, I think, is 
disingenuous. I think we do have an appropriate role to ask 
these questions, and I encourage the Chairman to continue down 
this path.
    Now, we have heard a lot from the administrators, we have 
heard a lot from the academics on this panel. I want to focus 
on the students, because that is who I really care about in 
this exchange, the students and the impact that these 
administrators, these universities who may be abusing this 
authority they have on campus, have on the students.
    So, Mr. Atkins, you are a Bernie Sanders supporter. You 
feel the Bern.
    Mr. ATKINS. Yes, sir.
    Mr. REED. I am on the other side of the aisle. I don't feel 
the Bern, but I respect your position, and I respect your right 
to have that position.
    So, as a student, I want to understand from your 
perspective. Take me back in time. As you were experiencing 
this from your institution, from Georgetown University, what 
was your impact? How did you feel? What did it make you do? 
Tell me. What impact did it have on you?
    Mr. ATKINS. So, like I said, for me, personally, 
Georgetown's presence in the Nation's capital was a big draw 
for me to come to law school at Georgetown. I have always been 
interested in politics, and I thought what better than to be 
able to study law in the political center of our country, and 
have as much exposure to politics while I am studying law as 
possible.
    So, this year, when classmates of mine and I decided that 
we wanted to support Senator Sanders' campaign with the bit of 
extra-curricular time that we had, we assumed that this would 
be activity that the school would appreciate, that its----
    Mr. REED. Why did you assume that?
    Mr. ATKINS. Well, because the school makes clear in most of 
its promotional materials and in speeches given by 
administrators that Georgetown's presence in Washington, D.C. 
should be a draw to its students----
    Mr. REED. To encourage free speech, to encourage the 
debate. That was your expectation in going to that college 
campus, correct?
    Mr. ATKINS. Precisely.
    Mr. REED. And when the university acted differently than 
that, that changed your interpretation, or your impression of 
that institution. Did it not?
    Mr. ATKINS. It did. And----
    Mr. REED. And let me ask you--I don't mean to cut you off, 
Mr. Atkins, but let me ask you another thing. As a student, did 
you have equal footing with the administrators, the president 
of the university?
    Did you think you could walk into the president's office 
and say, ``Hey, you know what? I am an equal partner here, you 
are going to change your policy because I am a student and I 
have a right to be heard,'' or did you feel any oppression from 
the administration, from the university, that, ``You know what? 
I am taking on a pretty large, powerful group here that 
controls my future, controls my destiny,'' because your grades 
are dependent on a lot of the people that are coming out of 
this program, right?
    Did that ever cross your mind as a concern that you may 
have, as a student?
    Mr. ATKINS. I don't know if I would characterize it as 
feeling oppressed by the administration. I certainly felt an 
obligation to defer to the administration, and my group----
    Mr. REED. Why? Why did you feel an obligation to defer to 
the administration?
    Mr. ATKINS. I mean, for the reasons you expressed, that, 
you know, I am reliant on the university's good will, to a 
certain degree, for my professional goals. But also because I 
assumed that if they had policies in place that would limit our 
activities in this way, that there must be a well-thought-out 
and justifiable rationale behind them.
    So we did everything we could to kind of respectfully 
inquire as to what that rationale was so that if we----
    Mr. REED. Did you find a rationale from them, in your 
opinion?
    Mr. ATKINS. I still don't think we have found out exactly 
what the school's motivation----
    Mr. REED. And when is the Presidential election over for 
you? When is Mr. Sanders potentially coming to an end?
    Mr. ATKINS. When will he come to an end?
    [Laughter.]
    Mr. REED. In this Presidential election.
    Mr. ATKINS. I don't think we will know that for some time. 
Certainly not until the Democratic Convention in----
    Mr. REED. Well, all the pundits--my point is what happened 
to all that time you lost. Are you going to get that back? Are 
you going to be able to advocate for Mr. Sanders, to go back in 
time? Is the Georgetown administration going to be able to do 
that for you?
    Mr. ATKINS. So we can't go back in time, and I think there 
is definite evidence of the negative effect that this has had.
    Just the other day I was speaking to one of my classmates, 
telling him about this testimony that I would be delivering 
today and what it was about, and he expressed grave concern 
because he said, ``You know, I know tons of students that are 
curious about Bernie Sanders, but just don't know a lot about 
him or his policies, and I think that if they did know they 
would be more interested and more open to accepting him and 
supporting his candidacy.'' And so, he was expressing, you 
know, regret that us, as students who wanted to kind of fulfill 
that service on the campus, were unable to do so.
    Mr. REED. And you will never get that back. And with that I 
yield back.
    Chairman ROSKAM. Thank you.
    Mr. Rice.
    Mr. RICE. Mr. Atkins and Mr. Zuckerman, I just want to say 
thank you for standing up for your rights. The First Amendment 
is fundamental to the freedom of the United States. Nothing 
more fundamental than that. And thank you for standing up for 
your rights and protecting all of our freedom, and protecting 
our Constitution.
    Ms. Sevcenko, thank you so much for your fierce advocacy on 
behalf of the First Amendment.
    Mr. George, I want to turn to you. And you mentioned that 
you and your counterpart professor--I can't recall his name--
co-host classes.
    Mr. GEORGE. I am sorry, I am having difficulty hearing you. 
I wonder if you could move closer--thank you.
    Mr. RICE. You mentioned that you and your co-host 
professor--I can't remember his name----
    Mr. GEORGE. Cornel West, yes.
    Mr. RICE. Yes, Professor West co-hosts a class presenting 
alternate viewpoints and civility in doing that. And I think it 
would be great if you and Professor West could come here to 
Congress and teach a couple of those classes, and maybe we 
could figure out a way to get things done on problems that we 
mutually agree are problems, and work toward finding more 
solutions for that.
    But can you tell me what the danger is? What are the 
effects on society if we prevent free expression in 
universities?
    Mr. GEORGE. Well, Congressman, I go into this in some 
detail in my written testimony. Universities have a certain 
mission. It really has three parts. It is the discovery of 
knowledge, or the creation of knowledge; the preservation of 
knowledge once it has been securely obtained; and then the 
transmission of knowledge. That is what we do with our 
students, we try to transmit knowledge to our students.
    We believe that is a sacred mission, because it is so 
important to the well-being of human beings and to the 
communities that human beings form, including nations. If you 
want to be a great Nation, you are going to have to have a 
well-educated people. James Madison said, ``Only a well-
educated people can permanently be a free people,'' and he is 
absolutely right about that.
    The trouble with stifling speech on campuses is not only 
that it is unfair, not only that it is a violation of our 
precious First Amendment in some cases, where the First 
Amendment does directly apply. It is also that it completely 
undermines the mission of the university. It makes learning 
impossible. It transforms education into indoctrination. And 
then we all lose. Not only our students, who are deprived of a 
true education, but also the entire community, the entire 
Nation, because we do not get the benefit of a truly educated 
citizenry.
    Mr. RICE. I appreciate that very educated and informed 
answer, and you have just convinced me that you all need to 
have a class here for congressmen.
    Ms. Hill, you know, clearly, we have to do whatever we can 
to protect the First Amendment on university campuses. The flip 
side of that coin is I can understand how administrators may be 
confused, because, as you said, there are limits on free 
speech. Right? It can't go to the point of harassment, correct? 
And certainly you can't yell fire in a crowded theater, and 
those other examples.
    And then the consequence of losing your tax-exempt status 
is terrible. So how do we correct this problem? How do we clear 
up the confusion and correct this problem, so we don't face 
this anymore? What would you suggest?
    Ms. HILL. Congressman Rice, I share your concern about the 
ongoing and difficult problems posed by reconciling compliance 
with reasonable laws and the search for greater liberty. That 
is really what we are talking about. That is what the First 
Amendment is there to do.
    And I have been much struck and often assign to my classes 
Justice Souter's remarks at a recent Harvard graduation 
available in the Harvard Law Review on trying to reconcile the 
competing demands and competing promises of the Preamble to the 
Constitution, ``We the people of the United States, in order to 
form a more perfect union, secure the national defense, secure 
liberty, provide for the general welfare,'' et cetera, ``do 
ordain and establish this Constitution.'' Justice Souter points 
out there are inherent conflicts among the values, and that is 
what democracy is there for.
    Now, in universities, I do believe that a commitment to 
open expression is absolutely fundamental. But I do not believe 
that we have to open our universities up to have its resources 
co-opted by people with private agendas. And I believe, with 
all due respect, that campaigning for public office should not 
just be a reason to use university resources willy nilly, 
especially by the people who can make it seem as though the 
university is complicit in this.
    Now, my husband has run for office. I have been a political 
wife. I understand about campaigning and about the feeling that 
America would have been a better place, surely, if my husband 
had won that election. But I also understand that that campaign 
should have been, as it was, funded by its own contributors, 
and not by the resources of the universities in that particular 
district.
    And so, I am convinced that a rational interpretation of 
the prohibition on political activity and the direct and 
indirect private benefit that can go with this to candidates 
and political parties is a rational policy, but I am not 
convinced that it has anything to do with students handing out 
leaflets for candidates.
    Chairman ROSKAM. Thank you.
    Mr. Kelly.
    Mr. KELLY. Thank you, Chairman, and thank you for allowing 
me to participate today. I really am concerned with Mr. Atkins 
and Mr. Zuckerman.
    And Professor, when you were talking you referenced Judge 
Learned Hand. And I am going to read something, because I think 
this goes to the very essence of what the meeting is about 
today. And I know you know what I am talking about. It goes to 
a speech that was given in 1944 by the judge, and it is called, 
``I Am an American Day.'' This is what the judge said: ``What 
do we mean when we say that, first of all, we seek liberty? I 
often wonder whether we do not rest our hopes too much upon 
constitutions, upon laws, and upon courts. These are false 
hopes. Believe me, these are false hopes. Liberty lies in the 
hearts of men and women. When it dies there, no constitution, 
no law, no court can save it. No constitution, no law, no court 
can even do much to help it. While it lies there, it needs no 
constitution, no law, no court to save it.''
    Isn't it stunning that you have to come, Mr. Zuckerman and 
Mr. Atkins, to Congress? Your right to free speech, whether I 
agree with what you say or whether I don't agree with what you 
say, that is the beauty of who we are, as Americans. That goes 
to the very fabric of what this country was founded on. And 
especially in our universities. But we can censor you when it 
comes to funding. And by tax laws and by codes we can make it 
impossible for you to have that free discourse, to have that 
disagreement, to have that argument out in the open.
    So I think it is really important that the people that are 
sitting here today understand that we listen to the people. We 
represent the people. In my district, 705,687 Americans sent me 
here--or at least a portion of them--to represent them.
    Mr. Zuckerman, how did this affect you? Because when we do 
attack you at the very base of who you are and what you believe 
and what we believe in as Americans, how does that leave you 
feeling at the end of the day?
    Mr. ZUCKERMAN. Well, frankly, I just think it is completely 
unacceptable for any university--especially public, legally. 
But from a moral perspective, it is unacceptable that any 
university would attempt to either censor its students--that is 
why we are there, to discuss, to learn, to listen to others' 
ideas, scrutinize our own--and for any university to shut that 
down or to try to impose orthodoxies that would pressure us 
into remaining silent is just not a good use of the--it is not 
a good use of the university's trust. It is betraying our trust 
in them.
    Mr. KELLY. Yes. So I--my real point is you should never be 
limited. You should never, ever feel that you don't have the 
ability to do this, and to speak out, especially on a 
university campus, especially in the United States of America.
    So, Mr. Atkins, you're feeling--at Georgetown University, 
when you--when they play this run-out-the-clock on you, what is 
your feeling now, as an American citizen? How were you treated? 
Was this really the America that you believed in? Is this 
really the America that you want to defend? Is this really the 
America that you want to live in and raise your children in? 
And is this really the America that at one point four million 
people in uniform died to preserve?
    Mr. ATKINS. I think there is an unfortunate kind of 
American cliche that has arisen that, you know, there is only 
two things you don't talk about: religion and politics. And I 
think that many of these policies are perhaps related to that 
sort of cultural norm, which I think is incredibly unfortunate, 
and goes against what the country was founded on.
    So in the case of my experience, you know, what was most 
troubling to me is I can certainly understand confusion as to 
what 501(c)(3) would obligate Georgetown to do. I can 
understand being risk adverse, and being concerned about 
retaining that tax exemption so that they could fulfill the 
entirety of their mission.
    But what was concerning to me is I didn't get a sense from 
the administration that they were concerned about how this 
affected our rights to engage in very valuable political 
expression. And it was that that kind of struck me and made me 
concerned about why wouldn't the university want to help us to 
engage in this type of activity.
    Mr. KELLY. Well, I want to congratulate both of you for 
standing up. And I think it is absolutely chilling that we have 
to have this kind of a hearing to expose what is going on.
    And I think, when I look back on my college days, that if 
we ever were suppressed, or not able to express the way we 
felt, you would have to go to the very depths of who it is we 
are, as a people. Because we can, through government, suppress. 
We can censor. We can do almost anything to you we want, and 
yet hold these high, high things that we--these are great 
things about America.
    We know that, enshrined in the very Bill of Rights--the 
very first amendment to the Bill of Rights allows us to have 
free speech. What you had to go through is absolutely 
ridiculous. And I don't care what college it is, private or 
public. All of these folks are influenced in some way or 
another by the Tax Code. So I don't want anybody ever to be 
confused about why we would hold this today. If not us, who? 
Who would hear you? Who would stand up for you? Who would 
defend you in the public place?
    You both do great work. And while we may not share the same 
opinions, I will tell you what. We share the same love of 
country, and the same commitment that if it is not us, if it is 
not our generation right now, who is it that is going to defend 
it in the future? So I thank you so much.
    And Chairman, thank you so much for allowing me to be here 
today. This is absolutely the most timely thing we can do 
because we are being chopped off at the knees, and so many 
opportunities we have to express ourselves in free speech.
    So, all of you on the panel, thanks so much.
    Professor George, it is good to see you. But I--when you 
said that about Judge Hand, that sparked in my memory what I 
had heard one time, and I read it, and I said, ``My gosh, this 
comes to it.'' When it dies in our hearts, when it dies in who 
we are, when it is no longer the fabric of who America is, then 
we are no longer America. So you can forget the red, white, and 
the blue, and all the things that we talk about all the time. 
If we can't defend who we are, if we can't protect the freedom 
of speech, then we have no business serving in this House.
    So I thank you so much and----
    Chairman ROSKAM. Thank you.
    Mr. KELLY. Chairman, I yield back.
    Chairman ROSKAM. Thank you, Mr. Kelly. Thank you to the 
witnesses. I just have a couple of points and a couple of 
questions, actually.
    One point is it is interesting. The House of 
Representatives has rules to protect itself from being 
marginalized. In other words, when we go to the House floor and 
we debate, I am able, under the House rules, if time is 
allotted to me, to make my points. I am protected from someone 
impugning bad motives to me when I make my points, regardless 
of the points that I make. House rules prohibit someone from 
questioning my motives. And if they do question my motives, I 
have the right to ``have their words taken down.'' That is a 
very compelling thing.
    So we have, in the House of Representatives--it is rough 
and tumble and sharp-elbowed and all that sort of stuff, but we 
have in the House of Representatives, by rules, those sorts of 
things, Mr. Zuckerman, that you are trying to create, that you 
have been successful in creating on Princeton campus. That is 
the capacity to go back and forth.
    Mr. Atkins, I am just impressed by your capacity to spot an 
issue and to spot an issue early and not be intimidated and not 
be put off. And I was reading your email exchange back and 
forth with Georgetown Law, and you did it twice. You were like 
a dog with a bone. You saw it and you stuck with it. You said, 
``It seems that the rules and guidance pertain almost entirely 
to the institution itself and its faculty and staff.'' That is 
your reply back to Georgetown Law when they were stiff-arming 
you. And then you did it--some time later you said, ``We are 
interested in exploring reasonable ways that we, as students, 
can permissibly engage in conduct which the institution itself 
is proscribed from.'' Great insight.
    Now, here is the point. This is Georgetown Law School. This 
is what Mr. Crowley has described, and I think everybody would, 
this preeminent institution. And if they are blind to it, and 
it takes a law student to say, ``I don't know, this sure 
doesn't seem right,'' we have a problem.
    I mean, Professor Hill, you made the point that this is 
pretty clear. You know, there has been a lot of either private 
letter rulings or other things, and a lot of guidance.
    But for some reason this is not penetrating down. And there 
is a lot of reasons for it, probably. Some of them--
institutions tend to be risk-adverse. They think Mr. Atkins is 
going to go away. They think Mr. Zuckerman is going to run out 
of steam and graduate and so forth. But that is the 
responsibility of this Committee, to make sure that we are 
doing the things that we do, number one, to educate, number 
two, to make sure we are holding these schools to a high 
standard, and number three, trying to create an environment 
where people can discuss.
    Now, Professor George, I have a question for you. What 
happens, or what is university life like, or what can it be 
like if it dissolves into--if it devolves into political 
correctness, the type of political correctness where faculty is 
intimidated, students are intimidated, and it is not an 
environment where you are free to think? Can you just give me a 
sense--and you mentioned it a minute ago--when political 
correctness one way or the other becomes--moves from--moves 
into indoctrination?
    In other words, ``You don't think the right way and you are 
not welcome here. And if you choose to think that way, you can 
keep your thoughts to yourself.'' What is that, if that becomes 
sort of the norm on college campuses today? What does that look 
like for us?
    Mr. GEORGE. Well, what happens is that education just 
ceases to take place. And instead, you get indoctrination. So 
the new students coming in are taught that there is a party 
line. They are taught not only formally, by--but informally. 
The culture that has been created communicates to them the idea 
that there is a party line, it is your job to believe it, it is 
not your job to question it, get on board with the program. It 
is absolutely inconsistent with education.
    For some of the reasons that Mr. Kelly articulated when he 
quoted from that wonderful speech by Learned Hand, what Hand is 
getting at there is the idea that the culture matters, the 
underlying culture really is determinative of the health of an 
institution. And that applies to an academic institution, as 
much as it does to other institutions.
    To educate a student you need to challenge that student's 
ideas, challenge the ideas of students who are on the other 
side, encourage the student to challenge your ideas and 
beliefs, and create what philosophers call a dialectic, an 
argument that goes back and forth, not with one side 
necessarily trying to defeat the other and win, but with both 
sides trying to understand more deeply what the truth of the 
matter is. Knowledge-seeking, wisdom-seeking, that is what it 
is all about.
    And, as Hand pointed out, you cannot engage in that if you 
are so convinced that there is no possibility that you could 
ever be wrong that you are not listening.
    Chairman ROSKAM. So I think it is important for us to make 
a connection. And it didn't occur to me until I was listening 
to all of you discuss your experiences and your insights.
    I think it is important for us to understand the 
relationship between Mr. Atkins' experience--that is, you know, 
they basically patted him on the head and said, ``How nice for 
you, but you are not going to distribute your candidate's 
literature here,'' make that connection, which is sort of 
condescending and an attempt to marginalize within the culture, 
all the way over to political correctness that becomes 
indoctrination. Some would say, oh, that is too big of a leap, 
you are overstating. I don't think we are overstating. I don't 
think we are making it too big of a leap.
    Mr. Zuckerman, one of the things that it seems to me you 
are an example of, whether you are articulating it this way or 
not, is you see the danger of the flashpoint of political 
correctness that becomes overwhelming and destructive to campus 
life. Can you just highlight a little bit?
    Am I getting this right? Do you see a relationship? Or am I 
overstating this, or----
    Mr. ZUCKERMAN. No, I would say you are absolutely getting 
it right. Some of the demands that have been made at Princeton 
would basically institutionalize this political correctness. We 
will take the example of a demand for a mandatory class in the 
studies of marginalized people. So that brings up the first 
question of who counts as marginalized. Presumably, the 
protesters, they have said the example of marginalized people 
would be either African Americans or the LGBT community.
    Now, are they actually marginalized? Many of my African 
American friends say, ``No, we are not marginalized.'' Many of 
my LGBT friends also don't think they are marginalized. But the 
university would be taking this notion of marginalization, 
forcing it on students who disagree with it, and those 
students, presumably, when they would voice their disagreement 
in class, are going to be mocked for countering the official 
university narrative, or probably going to be graded down by 
their professors, simply because they are rebutting the central 
premise of the class, which is this is marginalization. When 
you say no you are going to suffer the consequences, and that 
is very destructive to the flow of ideas.
    Chairman ROSKAM. You know, it seems--I am sitting here with 
Ranking Member Lewis. And you, who are students, you may not 
know his journey, but it is a fascinating one. And he has an 
autobiography that I commend to you.
    But it seems to me that his background of taking on a 
politically-correct situation decades ago was transformational 
for all of us. And we have to make sure that that capacity, in 
that sense, taking on a racist system, was absolutely 
transformational, and he had the capacity to do that, and to 
break boundaries and to make America better for everybody. We 
have to protect that, because you can imagine how this can 
become so debilitating.
    Let me give you an example. It is known to me that a 
student was in a university setting recently, and had a 
discussion. And the question was, ``Who is privileged?'' You 
can imagine this today, in this general milieu. ``Who is 
privileged?'' And after listening to the discussion, the 
student made this point. ``Hey, we are American college kids. 
We are all privileged.'' It was a scandal, basically, that this 
student asserted this in the classroom.
    And the student was made--you know, pointed out, ``Look, I 
am aware of orphanages overseas where kids aren't eating on the 
weekends. That is the standard. We need to operate on a global 
standard. By definition, we are all privileged. We are American 
college kids.'' And the student was marginalized, and the 
professor didn't protect the student, and so forth. And it 
became this absurd sort of thing where to make that sort of 
argument the student was accused of being insensitive and, 
``You don't understand,'' and so forth. And I think that if we 
have a situation where our college life devolves into that, 
that is just not helpful. And it is something that we need to 
inquire about, it is something that we need to highlight.
    And this notion of academic freedom, and freedom of speech 
on college campuses is really something to celebrate. It is 
something to defend, because there is something in it for all 
of us. There really is something in it for all of us.
    So, on behalf of our whole Subcommittee, I just want to 
thank each one of you for your willingness to come forward and 
to share your perspectives with us. For those that are 
listening or watching and have a story that they want the 
Committee to know about, you can just send us an email at, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7013111d0005035e030015151318301d11191c5e181f0503155e171f065e">[email&#160;protected]</a>
    And with that, we are adjourned.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
